No. 20-

IN THE
SUPREME COURT OF THE UNITED STATES

ALICE GUAN (YUE GUAN),
Applicant,
v.
Bing Ran
Respondent.

On Petition for Writ of Certiorari to the Supreme Court of Virginia

PROOF OF SERVICE
I, Alice Guan, do swear or declare that on this date, August 23, 2021, as required by
Supreme Court Rule 29,1 have served the enclosed PETITION FOR A WRIT OF
CERTIORARI (30 pages), its appendix, and certificate of compliance, by depositing
an envelope containing the above documents in the USPS priority mail postage paid
with tracking, and a replacement 4^tfpages) of the Petition in FedEx, via overnight
express mail postage prepaid with tracking, properly addressed to:
Chris Schinstock and Kyle Bartol, at 439 N. Lee Street, Alexandria, VA 22314.
is4rue and correct. Executed

I declare under penalty of perjury that the fo:
\

on August 23, 2021.
T7
Alice Guan, or Yue Guan, pro se

